HHS/OIG - Audit,"Review of Accounts Receivable Balances and Debt Management Activities at the Centers for Medicare and Medicaid Services, Region III Regional Office"(A-03-01-00012)
Department of Health
and Human Services
Office of Inspector General -- AUDIT
"Review of Accounts Receivable Balances and Debt Management Activities at the Centers for Medicare and Medicaid
Services, Region III Regional Office," (A-03-01-00012)
January 9, 2002
Complete Text of Report is available in PDF format (389 KB). Copies can also be obtained by contacting
the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This final report presents the results of our Review of Accounts Receivable Balances and Debt Management Activities at
the Centers for Medicare and Medicaid Services (CMS), Region III Regional Office (RO-III).  Accounts receivable represent
funds owed by medical providers to the Medicare program.  We found that financial adjustments and procedural improvements
were needed to prevent the misstatement of the CMS financial statements.  The RO-III non-Medicare Secondary Payer
accounts receivable balance as reported by CMS Central Office (CO) was overstated and the currently not collectible balance
was overstated.  We attributed the inaccuracy of the reported accounts receivable balances to weaknesses in the CMS
debt management system.  The RO-III made corrections to adjust these balances as of December 31, 2000.